<html>
<title> - ADVANCING SOLAR ENERGY TECHNOLOGY: RESEARCH TRUMPS DEPLOYMENT</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 
                  ADVANCING SOLAR ENERGY TECHNOLOGY: 
                       RESEARCH TRUMPS DEPLOYMENT

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 13, 2017

                               __________

                           Serial No. 115-43

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 
 
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 


       Available via the World Wide Web: http://science.house.gov
       
       
       
                            _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 28-413 PDF             WASHINGTON : 2018              
 
 
 
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         ZOE LOFGREN, California
MO BROOKS, Alabama                   DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             SUZANNE BONAMICI, Oregon
BILL POSEY, Florida                  AMI BERA, California
THOMAS MASSIE, Kentucky              ELIZABETH H. ESTY, Connecticut
JIM BRIDENSTINE, Oklahoma            MARC A. VEASEY, Texas
RANDY K. WEBER, Texas                DONALD S. BEYER, JR., Virginia
STEPHEN KNIGHT, California           JACKY ROSEN, Nevada
BRIAN BABIN, Texas                   JERRY McNERNEY, California
BARBARA COMSTOCK, Virginia           ED PERLMUTTER, Colorado
BARRY LOUDERMILK, Georgia            PAUL TONKO, New York
RALPH LEE ABRAHAM, Louisiana         BILL FOSTER, Illinois
DRAIN LaHOOD, Illinois               MARK TAKANO, California
DANIEL WEBSTER, Florida              COLLEEN HANABUSA, Hawaii
JIM BANKS, Indiana                   CHARLIE CRIST, Florida
ANDY BIGGS, Arizona
ROGER W. MARSHALL, Kansas
NEAL P. DUNN, Florida
CLAY HIGGINS, Louisiana
RALPH NORMAN, South Carolina
                                 ------                                

                         Subcommittee on Energy

                   HON. RANDY K. WEBER, Texas, Chair
DANA ROHRABACHER, California         MARC A. VEASEY, Texas, Ranking 
FRANK D. LUCAS, Oklahoma                 Member
MO BROOKS, Alabama                   ZOE LOFGREN, California
RANDY HULTGREN, Illinois             DANIEL LIPINSKI, Illinois
THOMAS MASSIE, Kentucky              JACKY ROSEN, Nevada
JIM BRIDENSTINE, Oklahoma            JERRY McNERNEY, California
STEPHEN KNIGHT, California, Vice     PAUL TONKO, New York
    Chair                            BILL FOSTER, Illinois
DRAIN LaHOOD, Illinois               MARK TAKANO, California
DANIEL WEBSTER, Florida              EDDIE BERNICE JOHNSON, Texas
NEAL P. DUNN, Florida
LAMAR S. SMITH, Texas
                            C O N T E N T S

                           December 13, 2017

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Randy K. Weber, Subcommittee on 
  Energy, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................     4
    Written Statement............................................     6

Statement by Representative Jacky Rosen, Subcommittee on Energy, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................     8
    Written Statement............................................    10

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    12
    Written Statement............................................    13

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    15
    Written Statement............................................    17

                               Witnesses:

Mr. Daniel Simmons, Principal Deputy Assistant Secretary, Office 
  of Energy Efficiency and Renewable Energy, US Department of 
  Energy
    Oral Statement...............................................    19
    Written Statement............................................    22

Dr. Martin Keller, Director, National Renewable Energy Laboratory
    Oral Statement...............................................    27
    Written Statement............................................    29

Dr. Steve Eglash, Executive Director, Strategic Research 
  Initiatives, Computer Science for Stanford University
    Oral Statement...............................................    38
    Written Statement............................................    40

Mr. Kenny Stein, Director of Policy, Institute for Energy 
  Research
    Oral Statement...............................................    49
    Written Statement............................................    51

Discussion.......................................................    56


                   ADVANCING SOLAR ENERGY TECHNOLOGY:



                       RESEARCH TRUMPS DEPLOYMENT

                              ----------                              


                      WEDNESDAY, DECEMBER 13, 2017

                  House of Representatives,
                             Subcommittee on Energy
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 2:09 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Randy 
Weber [Chairman of the Subcommittee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Weber. The Subcommittee on Energy will come to 
order. Without objection, the Chair is authorized to declare 
recesses of the Subcommittee at any time. Welcome to today's 
hearing entitled, ``Advancing the Solar Energy: Research Trumps 
Deployment.'' I recognize myself for five minutes for an 
opening statement.
    Good morning. I appreciate you all being here. Today we 
will examine the status of U.S. research in solar energy and 
explore the future of this Administration's effort to refocus 
funding on early-stage research and innovative technology.
    This September, the Department of Energy's Office of Energy 
Efficiency and Renewable Energy, or EERE, announced that the 
cost of utility-scale solar power has met the SunShot 2020 goal 
of under 6 cents per kilowatt-hour.
    This is an incredible achievement by solar power companies 
across the country, including many in my home state of Texas. 
More importantly, with this new benchmark, EERE announced a new 
direction in solar energy research, prioritizing early-stage 
research and emerging solar energy technology instead of cost 
reductions for commercially available technology.
    This new research will focus on two primary areas. The 
first is innovative technology in Concentrating Solar Power, or 
CSP, systems which use mirrors to reflect and concentrate 
sunlight onto a focused point in order to heat water and create 
steam to power turbines and create electricity.
    The second research priority relates to power electronics 
technologies. This technology connects solar photovoltaic, PV, 
arrays to the electrical grid. Advancements in power 
electronics will help grid operators and consumers to manage 
electricity use.
    EERE also recently released the fiscal year 2018-2022 
multi-year program early-stage research for PV technology, for 
grid integration, PV materials, and for concentrating solar 
thermal power.
    EERE will focus on advancements in fundamental technologies 
and research in materials science that will drive solar energy 
innovation forward. For example, at the National Renewable 
Energy Laboratory, NREL, materials science research is 
advancing the capabilities of solar energy technology.
    As you will hear from NREL Lab Director, Dr. Martin Keller, 
linking basic and early-stage research in materials to applied 
solar energy research can produce major breakthroughs in this 
area of technology. One example is the lab's experiments with 
perovskite solar cell technology which uses a low-cost and 
high-efficiency material that has widespread application 
prospects. Perovskites may provide a low-cost and scalable 
material for solar cells or semiconductors and could lead to 
more efficient solar technology.
    Perovskite solar cells have the potential for a ``roll on'' 
application, similar to printing newspapers, and research in 
materials science at NREL could provide a fundamentally new way 
for industry to actually manufacture solar cells. These 
research breakthroughs can transform energy markets far more 
than using limited research dollars to push deployment of 
today's existing solar technology.
    Congress should focus on making America the global leader 
in research and innovation in the energy sector. We do not need 
to pick winners and losers in energy markets to support next-
generation technology.
    I want to thank our accomplished panel of witnesses for 
testifying today and I look forward to a productive discussion 
about the future of solar energy research.
    [The prepared statement of Chairman Weber follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
     
    Chairman Weber. And with that, I recognize Ranking Member, 
Ms. Rosen.
    Ms. Rosen. Thank you. Good afternoon and thank you, 
Chairman Weber, for holding this important and timely hearing 
today. You know, it's been more than five years since this 
Committee last held a hearing specifically on solar energy. 
With the expanding deployment of solar power across our nation, 
the incredible advances made in this area over the past five 
years, I'm very glad we're getting a chance to reexamine these 
technologies.
    I'd also like to thank this distinguished panel of 
witnesses for being here. I'm very interested in what all of 
you have to say that will help us further enable the 
development of this critical resource and this critical 
industry.
    Solar energy is an important and growing portion of our 
nation's energy consumption. Its success is not only because it 
is a clean and renewable energy source, but also because it has 
become cost-competitive with other types of energy. In my State 
of Nevada we are currently getting about nine percent of our 
energy needs from solar technology and have doubled the amount 
of megawatts installed in the past year. In fact, a year ago 
the City of Las Vegas fulfilled its promise to run all of its 
municipal facilities with 100 percent renewable energy.
    On a personal level, I know firsthand from my life before 
Congress, the enormous benefits of solar energy. As the former 
president of Nevada's largest synagogue, I helped facilitate 
the installation of one of the largest solar projects by a 
nonprofit in Henderson, Nevada, cutting our energy costs by 
nearly 70 percent.
    I'm optimistic that the growth of solar will continue 
because of the research being carried out at our national labs, 
universities, and in American solar companies. For more than a 
decade, the University of Nevada Las Vegas has engaged in 
extensive research on renewable energy, and recently its Solar 
Decathlon team took first place for innovation and second place 
for both engineering and architecture in the national DOE 
competition. UNLV is also leading an initiative to establish a 
Solar Solutions Center, designed to employ research, policy 
analysis, and the business community to create solar energy 
jobs and improve technology. Strong investments in R&D will be 
vital to decreasing the cost of solar energy.
    However, I'm concerned about the consistent attacks on 
solar energy from both the current Administration and the 
Republican-led Congress. The Administration's proposed cuts of 
over 2/3 to the DOE's solar technology program budget will have 
a profound and negative impact on our nation's ability to 
utilize this resource for the benefit of our environment and 
our economy. Solar energy is less expensive now than it ever 
has been, and it can continue to become more affordable, saving 
our constituents and small businesses money.
    In addition, I am deeply concerned by the Republican tax 
bill that, among other incredibly harmful provisions, will hurt 
our solar industry by eliminating the ten percent investment 
tax credit for large-scale solar projects. I submitted an 
amendment to prevent the eventual elimination of tax credits 
for solar and geothermal energy, which unfortunately the 
majority refused to adopt.
    While this Administration and my Republican colleagues are 
trying to justify reducing U.S. investments in solar, China is 
spending more than double the United States on renewables with 
initiatives to continue spending through 2030 at levels that 
far outstrip the United States. Without strong support and 
investment by the federal government, we are likely to lose 
jobs in this growing industry and the opportunity to control 
our own energy future.
    My State of Nevada currently has over 8,000 solar jobs, and 
the projected solar growth is over 20 percent. We should be 
continuing to invest in the solar energy sector to create more 
jobs, not gutting proven programs that work.
    The next breakthroughs in solar energy are coming, whether 
here in the U.S. or somewhere else. The only question is 
whether the U.S. will lead the way or whether we will pay 
foreign companies for our energy needs and lose jobs overseas.
    I am looking forward to what the witnesses have to say 
about how we keep these jobs in our country and achieve the 
clean energy future that our citizens deserve. Thank you.
    [The prepared statement of Ms. Rosen follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
      
    Chairman Weber. Thank you, Ms. Rosen. I now recognize the 
Chairman of the Full Committee, Mr. Smith.
    Chairman Smith. Thank you, Mr. Chairman. Today, the 
Subcommittee on Energy will examine the Department of Energy's 
efforts to refocus the solar energy program on early-stage 
research and breakthrough solar technologies.
    This hearing specifically will consider the rapid 
integration of solar energy technology in the energy market and 
discuss the appropriate role of DOE investment in solar energy 
research in the future. Fundamental science and technological 
capabilities still challenge solar energy advancement, but it 
is crucial that the Department focus on basic and early-stage 
research that cannot be conducted by the private sector.
    For too long, the American public saw their taxpayer funds 
pick winners and losers in the energy market. The previous 
Administration often played favorites and invested heavily in 
the deployment of photovoltaic technology into energy markets. 
While this approach may have sped the deployment of today's 
solar energy, it did not lead to the kind of breakthrough 
technology in solar energy, manufacturing, and energy storage 
that is needed to help solar energy compete without tax 
credits, mandates, or subsidies.
    This committee supports DOE's role in funding basic and 
early-stage research that the private sector is truly unable to 
explore on its own.
    It is these kinds of breakthroughs, in new materials, 
electrochemistry, and advanced manufacturing that will lead to 
the next generation of solar energy technology.
    The President's fiscal year 2018 budget request also 
supports investment in early-stage applied research in solar 
energy. The budget request directs federal investment into the 
kind of research that industry cannot support and that can lead 
to new solar energy technology. This clearly signals the 
Administration's push for American energy dominance and 
independence.
    I want to welcome Mr. Daniel Simmons, the Principal Deputy 
Assistant Secretary for EERE to testify today. It is critical 
that we hear directly from the department of policy changes and 
the direction of DOE research programs.
    I thank our witnesses today for testifying about their 
valuable efforts in renewable energy programs, research, and 
for sharing their insights into emerging solar energy 
technology. I look forward to a productive discussion about 
early-stage research at DOE and the right approach to federal 
research investment. Thank you, Mr. Chairman. I yield back.
    [The prepared statement of Chairman Smith follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
     
    Chairman Weber. Thank you, Mr. Smith. I now recognize the 
Ranking Member of the Full Committee for a statement. Ms. 
Johnson?
    Ms. Johnson. Thank you very much, Mr. Chairman, and I 
appreciate you holding this hearing. It has been several years 
since this Committee has held a hearing that closely examined 
solar energy research and development activities carried out by 
the Department of Energy. These years have been a very 
consequential time for this sector. We have seen the price of 
solar energy decrease dramatically, and solar deployment 
continues to grow here in the U.S. and around the world.
    The Solar Energy Technologies Office within DOE's Office of 
Energy Efficiency and Renewable Energy has stewarded key 
research that has resulted in important innovations in the 
diverse commercial market for solar energy. Moreover, due in 
large part to investments enabled by the Loan Programs Office 
of DOE, the United States now has a vibrant and growing 
utility-scale solar industry.
    In that regard, I would like to congratulate the scientists 
and researchers at the Department of Energy, the national 
laboratories, and their private sector partners that helped us 
achieve a key milestone in the SunShot Initiative. Just this 
past September, DOE announced that the program achieved the 
cost reduction goals for utility-scale solar three years early. 
These smart government investments have resulted in significant 
private sector investment here in the U.S., which has led to a 
vibrant solar industry and well-paying jobs for Americans 
across the country.
    Unfortunately, this Administration and some of my 
colleagues in Congress do not recognize the realities of this 
industry. If we do not invest, others will. In fact, our 
international competitors have been investing and will continue 
to prioritize solar technology development. China is clearly 
beating us at our own game. Meanwhile we are quibbling about 
whether the federal government should invest in late-stage 
research or just early-stage activities, whatever that means, 
instead of supporting robust R&D investments across the 
innovation spectrum that will make the U.S. more competitive.
    The Trump Administration's budget proposed major cuts in 
solar energy R&D, including a 66 percent cut from prior year 
funding for the Solar Energy Technologies Office within EERE. 
It also called for an outright elimination of the Loan Programs 
Office, which enabled the commercialization of several first-
of-a-kind, large-scale solar power projects.
    Now, I am not going to tell you that every program the 
department currently implements is perfect. That wouldn't be 
research. I wouldn't tell you that reforms should not be 
considered or that reasonable people cannot simply disagree on 
the best way to allocate its resources, even after a careful, 
rigorous review. One of my primary concerns now is that such a 
thoughtful review never actually took place before proposing 
these draconian cuts. In fact, Administration officials 
confirmed after they released the budget that there was no 
engagement with the private sector to determine what industry 
would be able or willing to fund in the absence of federal 
investment. That is simply unacceptable.
    Defunding solar energy at DOE may be a nice political 
talking point for some, but when it comes to U.S. 
competitiveness and our economic growth, such a proposal is 
ill-advised and shortsighted. I am hoping we can have a 
productive dialogue today that will better inform us about the 
realities of this industry both here and around the world. We 
need to know what we have to lose before we are slashing the 
R&D budgets that are the livelihood and likelihood of any 
future economy.
    Thank you again, Mr. Chairman, for having the hearing, and 
I yield back.
    [The prepared statement of Ms. Johnson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
     
    Chairman Weber. I thank the gentlelady from Texas. Today 
our first witness is Mr. Daniel Simmons, Principal Deputy 
Assistant Secretary, Office of Energy Efficiency and Renewable 
Energy at the Department of Energy. Previously, Mr. Simmons 
served as the Institute for Energy Research's Vice President 
for Policy, Director of the National Resources Task Force at 
the American Legislative Exchange Council, and was a research 
fellow at the Mercatus Center. Mr. Simmons received his 
bachelor's degree from Utah State University and his law degree 
from George Mason University School of Law. Welcome, Mr. 
Simmons.
    Our second witness today is Dr. Martin Keller, Director of 
the National Renewable Energy Laboratory. Previously Dr. Keller 
served as the Associate Laboratory Director for Energy and 
Environmental Sciences at Oak Ridge National Laboratory. He 
received his doctorate in microbiology from the University of 
Regensburg in Germany. Welcome to you.
    Our third witness is Dr. Steve Eglash? Okay. Executive 
Director of Strategic Research Initiatives in the Computer 
Science Department at Stanford University. Previously, Dr. 
Eglash was President and CEO of the solar energy company Cyrium 
Technologies as well as a consultant for the National Renewable 
Energy Laboratory and the U.S. Department of Energy. Dr. Eglash 
received his Ph.D. and MS from Stanford University and his 
bachelor's degree from the University of California at 
Berkeley, all in electrical engineering. Welcome, Dr. Eglash.
    Our last witness today is Mr. Kenny Stein, Director of 
Policy at the Institute for Energy Research. Previously, Mr. 
Stein worked in policy roles at FreedomWorks and the American 
Legislative Exchange Council. He received his law degree from 
the University of Houston. You're a cougar. Me, too. Good for 
you. Let the record show that Mr. Stein's testimony will carry 
a double in credence here today. He received his law degree 
from the University of Houston and his bachelor's degree from 
American University. Welcome, Mr. Stein.
    I now recognize Mr. Simmons for five minutes to present his 
testimony. Be sure your mic is on, please.

                TESTIMONY OF MR. DANIEL SIMMONS,

             PRINCIPAL DEPUTY ASSISTANT SECRETARY,

                OFFICE OF ENERGY EFFICIENCY AND

           RENEWABLE ENERGY, US DEPARTMENT OF ENERGY

    Mr. Simmons. Good afternoon Chairman Smith, Chairman Weber, 
Ranking Member Johnson, Veasey, and Ms. Rosen and Members of 
the Committee. Thank you for inviting the Department of Energy 
to testify. My name is Daniel Simmons, and I am the Principal 
Deputy Assistant Secretary for Energy Efficiency and Renewable 
Energy at the Department of Energy.
    Solar energy technologies are an important source of energy 
for our nation, and I thank you for the opportunity to discuss 
our research to advance these technologies.
    Ten years ago, the solar market looked very different than 
it does today. There were only 1.1 gigawatts installed in the 
United States, representing less than 0.01 percent of the 
nation's energy mix. Now, there are more than 50 gigawatts 
installed, providing nearly one percent of U.S. electricity and 
growing rapidly. Over 80 percent of the solar ever installed 
was installed in the last five years, and in the next five 
years it is projected to triple.
    Over the past ten years, solar costs have declined 
dramatically. For example, earlier this year, as Chairman Weber 
noted, the Solar Energy Technology Office announced that the 
industry met the SunShot utility-scale cost goal of 6 cents per 
kilowatt hour three years early.
    While there are many reasons for solar prices to have 
declined and installations to have risen, federal research and 
development plays a role. This Administration is committed to 
developing a wide range of energy resources through R&D and 
believes that federal funding should prioritize basic and 
early-stage applied research. As stated in the joint Office of 
Management and Budget and the Office of Science and Technology 
policy memo on R&D priority areas for the fiscal year 2019 
budget formulation, ``American leadership in science and 
technology is critical to achieving this Administration's 
higher priorities: national security, economic growth, and job 
creation. American ingenuity combined with free-market 
capitalism have driven and will continue to drive tremendous 
technological breakthroughs.
    Development of domestic energy sources should be the basis 
for a clean energy portfolio composed of fossil, nuclear, and 
renewable energy sources. Agencies should invest in early-
stage, innovative technologies that show promise in harnessing 
American energy resources safely and efficiently. As proposed 
in the President's fiscal year 2018 budget, federally-funded 
energy R&D should continue to reflect an increased reliance on 
the private sector to fund later-stage research development and 
commercialization of energy technologies.''
    DOE's Solar Energy Technologies Office focuses primarily on 
reducing the cost of various solar technologies, including 
photovoltaic and concentrating solar thermal power.
    The dramatic cost reductions in solar technology provide an 
opportunity for the Administration to re-focus the solar 
office's research on a longer-term challenge, grid integration. 
In the long term, the primary challenge facing solar is not 
necessarily cost but reliability and integration of solar power 
into the grid. While lower prices have helped drive new 
capacity installations, more work is needed to make solar a 
reliable, on-demand energy resource.
    This year, DOE has approved over $100 million in financial 
assistance to advance our early-stage research priorities 
around solar reliability and grid integration. Examples include 
up to $62 million to support advances in concentrated solar 
power technologies. Up to 20 million is dedicated to early-
stage projects to advance power electronics technologies. That 
is the interface between the grid and solar panels. And up to 
10 million to support improved solar forecasting.
    Each of these research areas will help make it easier to 
integrate solar energy into the electric grid. In addition to 
this work, EERE works with the Office of Electricity Delivery 
and Energy Reliability through DOE's Grid Modernization 
Initiative. One important focus is researching solar plus 
storage. Energy storage allows variable sources of energy, such 
as solar, to be used when it's needed the most. Making solar 
power available when energy is needed is the most critical 
challenge for the solar industry today. DOE's solar R&D is 
focused on these critical energy challenges of grid 
reliability, resilience, and integration. EERE will continue to 
focus on early-stage research and development to advance solar 
technologies, while forging strong partnerships with the 
private sector to maximize the impact of federal funding.
    Thank you for the opportunity to testify today, and I look 
forward to answering your questions.
    [The prepared statement of Mr. Simmons follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
    Chairman Weber. Thank you, Mr. Simmons. You ended right on 
zero. Dr. Keller, you're recognized for five minutes.

                TESTIMONY OF DR. MARTIN KELLER,

         DIRECTOR, NATIONAL RENEWABLE ENERGY LABORATORY

    Dr. Keller. Chairman Weber, Chairman Smith, Ranking Member 
Veasey, Rosen, Johnson, and our own Congressman Perlmutter, 
Members of the Subcommittee, thank you for this opportunity to 
address the future research opportunities for solar energy and 
the many benefits that advanced solar technologies can deliver 
for our nation.
    I'm Martin Keller. I'm the Director of the U.S. Department 
of Energy's National Renewable Energy Laboratory, or commonly 
called NREL, based in Golden, Colorado. My career has included 
research positions in the private sector and more than a decade 
within the national lab complex. I previously was an Associate 
Lab Director at Oak Ridge National Laboratory and before that 
led the technology development for a San Diego-based start-up 
company. I hold a doctorate in microbiology from the University 
of Regensburg in Germany. And my entire career has been about 
integrating foundational science into important new 
applications.
    In my view, the subject of today's hearing could not be 
more timely nor more important to the energy future of our 
country. Although solar energy accounts for about 1.8 percent 
of U.S. electrical generation today, it is on a remarkable 
trajectory of growth. Last year, solar was the nation's leading 
source of new electric generation capacity. It's also an 
economic force. More than 260,000 Americans are employed in the 
solar industry with 51,000 jobs added just in 2016. This marked 
the fourth consecutive year of more than 20 percent growth.
    Our research has made incredible progress on bringing solar 
technologies into the mainstream. And solar is in fact becoming 
competitive with conventional power from the grid. This said, 
we cannot afford to slow our progress on innovating solar 
technology.
    To achieve solar potential, an ongoing program of federally 
supported early-stage research is needed. NREL and other 
national labs have the greatest expertise and the unique 
facilities to lead this effort.
    I would like to share with you examples of how early-stage 
research can deliver potential game-changing breakthroughs in 
solar research. Fundamental material research in the solar area 
expanded into a new class of PV materials called perovskites. 
These materials hold a great promise to increase efficiency by 
cutting costs. One of the benefits of these materials is the 
potential of extremely high-speed manufacturing. Just imagine 
solar cells being produced at the rate of speed that a 
newspaper is produced on a commercial printing press. What is 
now needed is a federally supported hub for perovskite 
research, coordinating the work of industry, universities and 
national labs to deliver breakthroughs needed to swiftly bring 
this technology to the market.
    Other examples are further development of lightweight PV 
materials and new production methods for very high efficient 
layered solar cells. Lightweight PV materials are becoming 
increasingly important to the U.S. military to power the 
computers and communication systems of our soldiers on the 
ground. Very high-efficient solar cells manufactured through 
much cheaper processes may eventually give our military--the 
commanding power of perpetual flight. We're optimistic that the 
several research efforts I just outlined could bring about a 
revolution in PV technology and inject new vitality into U.S.-
based solar manufacturing.
    Even with advances in grid integration technology, we will 
certainly need storage technologies. Because of this, storage 
for solar energy warrants complimentary research dedicated to 
its own unique requirements. As distributed solar generation 
becomes a larger part of the generation mix, our electric grid 
systems have the potential to become even stronger, with 
greater flexibility and resilience. Energy integration at this 
complex level presents a deep scientific challenge. This 
research path is crucial not only for solar but for the entire 
U.S. electric grid.
    As solar power becomes more prevalent in the United States, 
we will be able to use surplus solar power to enhance economic 
competitiveness. The potential is to convert solar electricity 
or heat into viable products like fuels, hydrogen, or other 
chemicals. It can provide an economic advantage to U.S. 
industry through a sustained scientific research effort along 
these multiple pathways.
    In addition to solar photovoltaic technologies, 
concentrating solar power, or CSP, has significant potential as 
well. Here, we need to develop systems that run at higher 
temperatures and boost operating efficiency. And since CSP can 
use thermal energy to expand the period in which it produces 
power, CSP could give grid operators considerable flexibility 
from providing base load to peaking generation.
    As we contemplate the research portfolio for the years 
ahead, we should remember that other nations are currently 
ramping up their own government-supported solar research. If we 
fail to maintain our innovation leadership in solar, others 
will be happy to take our place.
    In conclusion, I am not exaggerating when I say that 
researchers at my laboratory and around the country are excited 
and eager to tackle these challenges and bring us the important 
advancements in solar technology that we need for our nation's 
energy future.
    [The prepared statement of Dr. Keller follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
     
    Chairman Weber. All right. Thank you, Dr. Keller. You were 
one second over. Dr. Eglash, you've got to get with the 
program. You're recognized for five minutes.

                 TESTIMONY OF DR. STEVE EGLASH,

      EXECUTIVE DIRECTOR, STRATEGIC RESEARCH INITIATIVES,

            COMPUTER SCIENCE FOR STANFORD UNIVERSITY

    Dr. Eglash. Chairman Weber, Ranking Member Rosen, Chairman 
Smith, Ranking Member Johnson, and Members of the Subcommittee, 
thank you for the opportunity to appear before you today.
    There's tremendous benefit to continued federal investment 
in research in solar energy and other fields because this 
investment improves U.S. industrial competitiveness, 
strengthens our nation's economy, and creates jobs. Industry 
often can't afford this research on its own because the 
technologies are too numerous and broad, each individual 
project too risky, and in some cases the time to payoff too 
long.
    Federally funded research must be appropriately focused and 
effectively managed if it is to lead to good return-on-
investment and benefit for U.S. industry. Fortunately, we can 
turn to exemplary models and identify best practices. The U.S. 
government, academia, and industry each have unique roles and 
have to work together across the entire innovation pipeline. 
Government has the resources to fund research, act as a 
bridging institution, and convene across academia, national 
labs, and industry. Universities and national labs are 
excellent places for innovative research. Industry has insights 
on real-world opportunities and challenges, as well as the 
resources for commercialization and large-scale impact.
    Recent progress in reductions in the cost of solar 
electricity has accelerated the deployment of residential and 
utility-scale solar. But as impressive as this is, it is only 
the beginning and there is a need to go further. Further 
reductions in the cost of solar electricity will lead to higher 
levels of penetration and will lower the average cost of 
electricity.
    The next steps in solar panel research are higher 
performance through new and improved materials, larger panels 
leading to reduced cost of manufacturing and installation, 
reduced capital equipment costs for factories, and improved 
reliability for longer lifetimes.
    Further DOE-funded research in solar energy is important 
for another reason. It is critical to U.S. competitiveness. If 
the U.S. develops technology for the next generation of 
improvements in photovoltaics, then we have an opportunity to 
expand manufacturing and increase jobs. If the U.S. doesn't do 
this research, then other countries will and they will reap the 
benefits instead of us.
    The Bay Area Photovoltaic Consortium is an exemplary model 
for federally funded research. It was created in 2011 by the 
U.S. Department of Energy, Stanford University, and the 
University of California at Berkeley. The objective of the Bay 
Area PV Consortium is to perform industry-relevant, cutting-
edge research on photovoltaic modules enabling high efficiency 
and low production costs, thereby strengthening the U.S. 
photovoltaic industry. The Bay Area PV Consortium established a 
new structure where industry sets the research priorities, 
professors at universities develop research proposals and 
conduct the research, and the DOE, academia, and industry work 
together to manage the program. The nature of the research is 
foundational to develop the knowledge base. It's not industrial 
policy, subsidies, or the government picking winners and 
losers. Rather, it's research that the industry will not 
undertake by itself because of the risk and time to payoff.
    The Bay Area PV Consortium developed innovative 
technologies in close cooperation with industry that 
facilitated technology transfer and commercialization. It 
educated and trained a large number of graduate students and 
post-docs, thereby contributing to workforce development. The 
Bay Area PV Consortium created an interactive ecosystem 
comprising leaders from government, universities, national 
labs, and industry. The resultant interactions and 
collaborations catalyzed a generation of disruptive ideas.
    The success of the Bay Area PV Consortium is due in part to 
a seamless integration of research and application that was 
responsive to the needs of industry, the ideas of researchers, 
and the priorities of the DOE. Of course, the BAPVC is just one 
piece of a larger research infrastructure where support for 
innovative and impactful research is contributing to our 
nation's success.
    Federally funded research on technologies such as solar 
energy helps U.S. competitiveness and creates jobs. Continued 
U.S. Department of Energy funding for solar energy research 
will strengthen and expand the U.S. solar industry, reduce 
energy costs, and improve our energy independence. Public-
private partnerships assure that federally funded research 
targets the right problems and results in successful technology 
transfer to U.S. industry.
    [The prepared statement of Dr. Eglash follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
     
    Chairman Weber. You guys are good. Mr. Stein, you're up for 
five minutes.

                 TESTIMONY OF MR. KENNY STEIN,

       DIRECTOR OF POLICY, INSTITUTE FOR ENERGY RESEARCH

    Mr. Stein. Mr. Chairman, thank you for the opportunity to 
participate in this Subcommittee hearing on federal government 
involvement in solar research. My name is Kenny Stein. I am the 
Policy Director for the Institute for Energy Research.
    The purpose of federal government funding for research in 
any industry should be clearly defined. The justification for 
such funding is that research in emerging or novel technologies 
would not otherwise be provided by private interests, whether 
companies or individuals. This is a reasonable role for the 
federal government to play. However, this cannot be a license 
to spend money.
    Federal support should not go to projects that private 
interests already have a clear incentive to develop. Far too 
often it is the case that the federal government provides grant 
money to companies to subsidize activities that they would 
already be undertaking.
    A perfect illustration of this failure of mission is the 
SunShot Initiative. Launched by the Department of Energy in 
2011, this move sought to reduce the cost of solar energy 
systems so that they could become cost competitive with other 
forms of energy. Simply put, that is a political goal, not a 
research goal. It is not the federal government's 
responsibility to support the success or spread of a given 
technology or way of operating. Any solar manufacturer or 
operator already has an overwhelming market incentive to lower 
costs. Offering government money in addition to existing 
economic incentives does not add to the well-being of the 
American people or address some unmet need of the federal 
government itself. It simply subsidizes activities which 
private interests are already doing. Indeed, government funding 
often crowds out private funding when it enters a given area, 
limiting the overall level of investment and spurring calls for 
even more government spending to make up for the exit of 
private investment.
    The federal government, slow and process-constrained as it 
is, cannot adjust rapidly to technological developments. As new 
operating processes or products enter the market, it can be 
left funding old or obsolete initiatives. Getting locked in on 
lowering the costs of existing solar technologies does nothing 
to support emerging or novel technologies. Indeed, in another 
form of crowding out, this federal focus can lead an industry 
to spend its time trying to meet federal benchmarks rather than 
asking the question whether alternatives might make more sense, 
which ironically limits innovation in a given industry.
    The SunShot Initiative has tried claiming victory as the 
costs of solar installations have indeed fallen. But how much 
of that cost decline is because of federal research spending 
rather than Chinese manufacturing innovation, tax support from 
the Investment Tax Credit, state renewables mandates, or the 
simple financial imperative to make money? The fact that is an 
impossible question to answer suggests the folly of the SunShot 
Initiative. SunShot was not about research. It was about 
picking winners and losers, arbitrarily seeking to improve the 
economics of certain solar applications because of the 
political preferences of the Administration at the time.
    A more appropriate role for the Department of Energy can be 
found in the earliest days of solar energy generation 
technology. Early solar panels with poor efficiency found 
little uptake for terrestrial uses. However, the burgeoning 
space program identified solar as a potential energy source for 
spacecraft. Government funding from NASA helped develop nascent 
solar technologies to the point where it was usable in space 
applications. And years later, solar companies built on that 
foundation to develop the generation technologies that are now 
being applied to terrestrial electricity generation.
    The lesson here is that the federal government didn't 
choose a solar technology and then try to commercialize it or 
reduce its costs. The basic technology was developed for a 
specific national purpose, with private innovation later 
finding applications for the private market. This is how the 
process should work. The federal government does not have the 
characteristics or competency to be a startup incubator, but it 
can effectively provide a base level of data and information 
for private innovators to build on.
    Thus a better path forward for the Department of Energy 
would be focusing on the original mission that I suggested 
above, funding emerging or novel technologies and applications 
not otherwise supported by private interests. There is a 
legitimate federal role in supporting such basic research that 
has the potential to improve the overall well-being of the 
American people or is required to meet a specific federal need. 
The current Administration has indicated an interest in 
reorienting federal policies to early-stage research. I applaud 
this goal and look forward seeing how that initiative develops.
    In closing, I will note, however, that this pivot should 
not just be a branding exercise, with anything called early-
stage eligible for funding. Federal research spending should 
focus on truly novel technologies or applications. Further, 
this should not be a license to spend more money. Clearly 
focusing federal priorities means discarding some spending 
areas to hone in on truly basic research, a case where less is 
better.
    Thank you for the invitation to participate in this 
evolving discussion.
    [The prepared statement of Mr. Stein follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

    
    Chairman Weber. Thank you, sir. The Chair will now 
recognize himself for five minutes. Mr. Simmons, how 
specifically has the DOE changed its priorities to fund more 
early-stage research and technological development?
    Mr. Simmons. In the areas that I outlined, it makes sense 
to spend money, say, on concentrated solar power for the value 
that it can have to grid reliability for things like power 
electronics because power electronics are really the bridge 
between power cells and the electric grid, and better power 
electronics can help provide important services to the grid.
    So those are two ways as well as working for solar 
forecasting to make sure that we're focused on these--making 
sure that we have better solar forecasts so that solar is 
better integrated into the grid.
    So it is making sure that we focus very much on this, you 
know, earlier stage projects and less on deployment.
    Chairman Weber. All right. Thank you. Dr. Keller, you've 
heard the Department's announcement to focus more on early-
stage research within EERE.
    Dr. Keller. Yeah.
    Chairman Weber. Okay. So what impact could this refocus 
have on the direction and projects undertaken at your lab?
    Dr. Keller. So as I outlined in my testimony, we have a lot 
of early-stage research going on. So I applaud the department 
for focusing on the early stage. This said, I think it's also 
important that we have a balanced portfolio. I think it's very 
important that we looking into this holistically into this 
research because you need to look at this in an integrated way. 
So I think we need to continue to throughout early-stage 
research to de-risk some of these new technologies what 
industry cannot do. And then you also have to have a research 
portfolio to help to transition this technology to industry.
    Chairman Weber. You mentioned several areas of fundamental 
science in your testimony.
    Dr. Keller. Yeah.
    Chairman Weber. Can you explain how these areas help the 
solar industry?
    Dr. Keller. I give you perovskite as an example. This is a 
very early-stage research. If we are successful to overcome 
some of the limitation on this material, their stability 
concerns, for example, and moisture sensitivity, this will lead 
to a revolution in the way we're making solar cells.
    So I showed you this, that you can use the so-called roll-
to-roll. You can produce solar cells in the way you're doing 
newspapers because this will lead to an ink. So suddenly you 
can have solar panels in ways, in areas where we even have no 
chance right now to go into.
    So this is one of this what I call game-changing 
technologies.
    Chairman Weber. Not to mention the rapid production.
    Dr. Keller. That's exactly what this is, roll-to-roll. So 
you--it's almost like an ink. So you bring this down to a 
carrier like you would bring down ink onto a newspaper. This 
can be revolutionary in the way of making solar panels.
    Chairman Weber. Sure. Mr. Stein, you talked about the 
proper role of federal government. So in your opinion, what is 
the proper role of the federal government when it comes to 
funding priorities for applied energy research?
    Mr. Stein. Well, I think the category that I sort of 
outlined is the idea that this is something that is not being 
funded and will not be funded by private interest or 
individuals.
    Chairman Weber. Well, should we preempt that with the need 
for it first?
    Mr. Stein. Well, the need for it--I think that----
    Chairman Weber. You have to have a need before you decide 
you want to go and research how to fix that need. True stuff?
    Mr. Stein. Well, that's, well, yes. That's certainly true. 
But the part of the problem with the government funding all 
these things is knowing what that need is.
    Chairman Weber. Right.
    Mr. Stein. The government isn't necessarily good at 
identifying those things.
    Chairman Weber. Heck, you say.
    Mr. Stein. You could have private companies can think of 
novel applications for some of these things that the government 
just doesn't have the capacity or the management process to 
come up with those.
    Chairman Weber. So when that need's identified, when that 
process is identified, should the federal government fund late-
stage consortiums where industry is already involved in 
developing solar energy technology?
    Mr. Stein. Well, I would say no, simply because once it's 
already--the technology is proven once the data and research is 
there. Really, it's private companies going out and finding a 
way to economically produce that and apply it in the private 
market.
    Chairman Weber. Thank you. I've got about 30 seconds left, 
and I want to just make a couple of observations. I think 
there's about four steps to this. And Dr. Eglash, you may be 
the best one. You have the degrees in engineering, right?
    It seems like there's four steps to solar: concentrate it, 
capture it, store it, and then release it efficiently. Is that 
fair?
    Dr. Eglash. Yes, that's fair.
    Chairman Weber. Okay. So where do you think--very quickly. 
I'm out of seconds here. But where do you think the most 
innovation needs to happen out of those four?
    Dr. Eglash. There's still a lot of opportunity for 
innovation in making solar panels better, more efficient, and 
lower cost and longer lived.
    Chairman Weber. So that's the storage part, that could 
release it efficiently?
    Dr. Eglash. That's the process of converting sunlight into 
electricity, the amount of electricity that we can produce for 
a given panel or a given dollar invested and then integrating 
that electricity with the rest of the electric grid with 
storage, with loads in buildings----
    Chairman Weber. That's the releasing it efficiently part?
    Dr. Eglash. That's right.
    Chairman Weber. Thank you. Then I now recognize Ms. Rosen 
for five minutes.
    Ms. Rosen. Thank you. So many questions, but I'm going to 
focus a little bit on our national security and safety, our 
dependence on foreign sources of energy, and the jobs that 
would be lost if we lose this industry.
    So as a matter of national security and safety, we want to 
reduce our dependence on foreign sources of energy, reduce our 
carbon footprint, and the solar energy industry provides good-
paying jobs.
    Last year, there were over 260,000 solar workers in 
America, over 8,000 in Nevada. Jobs, of course, vary from 
installation to installation, manufacturing, sales, 
development, our own local IBEW, Local 357 with apprenticeship 
programs to train future electricians to work on solar, wind, 
all kinds of future things.
    So to all the panelists, I want to tell you at the end of 
the day what my constituents care about are two things, our 
national security and safety and their ability to get good-
paying, forward-facing jobs of the future.
    So if we cut this DOE, this proposal to drastically cut the 
funding, these loan guarantee programs that finance these large 
energy projects, especially in Nevada, how is that going to 
impact your research and our jobs and essentially our security 
if we rely on China for our solar energy?
    Mr. Simmons. If I may?
    Ms. Rosen. Yes.
    Mr. Simmons. One of the important things that we are doing 
is focusing on the early-stage research and development. What 
that means and what we want to do is that's not the end of the 
story. We do not want these technologies just to be developed 
in the labs and to stay in the labs. That's why I'm glad that 
Martin is here today because NREL has done a very good job of 
filling the next part, and that is for--what we would very much 
like, and we as the Department of Energy would like, is to then 
work with industry in making sure that we get those 
technologies out of the labs. So at the Department of Energy, 
there's the Office of Technology Transitions that works with 
that to help bridge that technology and get it out of the labs.
    Also, in the labs, and Martin can speak to this, is that 
the labs can and do engage with industry and strategic 
partnerships. They do work for industry and very much we would 
like to bring more industry dollars to the labs to be able to 
get these technologies out of the labs and into the market, to 
grow the workforce so that we have more solar jobs in America 
than in other places.
    Dr. Eglash. If I could add something to Mr. Simmons' 
comment? I think it's important to realize that these 
technologies are not static and fixed in time. These are 
technologies that are evolving. And so even though there has 
been recent progress, there's still room for considerably more 
improvements in performance, cost, manufacturability, and 
reliability.
    If America does this research, then we'll have the IP and 
know-how. We'll be in a position to translate that into 
stronger companies, a stronger economy, greater energy 
independence, and more jobs. If we don't do the research, 
someone else certainly will. The research is there waiting to 
be done, and then we won't have the opportunity to reap those 
benefits ourselves.
    Ms. Rosen. Thank you. I want to build on that because our 
critical grid infrastructure, it does rely on a combination of 
technologies. And how do you know what's early- or late-stage? 
Because like you said, things aren't static, they're dynamic. 
And sometimes you are doing research, you hit a dead end one 
time but that becomes a solution and the next research.
    So please tell me, Dr. Eglash, can you discuss a false 
dichotomy between early-stage and late-stage research?
    Dr. Eglash. I think this distinction that some people like 
to draw between early and late stage or basic and applied is 
frequently misleading and not helpful. What's needed in most 
cases is understanding fundamentally what's going on in areas 
that can be inspired by and informed by real-world problems.
    That's why having the federal government and industry and 
our scientists and professors all involved in this dialogue and 
this effort can be so helpful.
    If we think of the future of the energy system, 
communications and information technologies and energy are 
frequently going to come together around things like smart 
cities, electric vehicles, and so on. We can't predict that 
trajectory. We want to make sure that we have the know-how in 
technologies to allow us to control it and benefit from it.
    Ms. Rosen. So we need those on-ramps and off-ramps through 
all stages of research and development to continue to grow in 
every single way, would you say?
    Dr. Eglash. I would say.
    Ms. Rosen. Thank you.
    Chairman Weber. She was right on the money, too. I tell you 
what. You all are going to spoil us. The Chair now recognizes 
Mr. Rohrabacher from California.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman, and let 
me just note that I think that your testimony today is a reason 
for optimism. And we've actually had the government do some 
things that seem to be bearing fruit now. So that's great.
    But the trouble is, and I will just have to say, whenever--
Ronald Reagan used to say--and I'm wearing Reagan brown today 
by the way--Reagan used to say that a government program is the 
next best thing to eternal life on this planet. And Dr. Eglash, 
I'm sorry, but at some point, we've got to say the private 
sector can do this. And I certainly buy onto the evidence that 
we've heard today that we have made great advances so that we 
now know there are billionaires in the private sector who could 
put money into this and make it real. The idea that you did 
suggest, however, which I thought was important, was there are 
government policies--now that it is real, now that it can be 
commercialized, that we need to make sure that the government 
policies of how to get onto the grid--and in fact, there's big 
debates here over the years as to whether or not the electric 
companies should be forced to take electricity when it's being 
produced by a private sector, and thus we would be able to give 
incentives for even more solar energy production of 
electricity. I've always thought that was a fairly good idea 
myself.
    I'd like to ask you guys about--and I say all of you. I've 
heard that there's a major technology breakthrough in 
batteries, and I understand that there's been a lot of money 
put into it and various approaches. But that at the 
University--Mr. Chairman, your university down in Austin, 
Texas, I understand has had a breakthrough with the fellow in 
charge of the--I think he was the inventor of the lithium 
battery, Dr. Goodenough. Now, he says, and what I understand, 
is that now they're capable of producing a type of battery that 
would be based on sodium rather than lithium. Have you heard 
about that? And if you have, does that have promise or is there 
something wrong, it's just being hyped? Maybe a little bit from 
each one of you on that.
    Mr. Simmons. Sure. So the Department of Energy, we fund 
research on batteries for--a wide variety of batteries, that we 
do not want to put all our eggs in one basket when it comes to 
battery technologies because of, you know, the value of energy 
storage, both for automobile applications, which is one of the 
areas where we fund research and the Office of Electricity 
funds research for grid scale storage.
    So we fund a large number. I have heard about this 
technology.
    Mr. Rohrabacher. You don't have any----
    Mr. Simmons. I don't have--I don't know any specifics.
    Mr. Rohrabacher. Okay. Yes.
    Mr. Simmons. But there is great opportunity.
    Mr. Rohrabacher. Okay.
    Dr. Keller. You know, Professor Goodenough, is as you said, 
godfather of lithium.
    Mr. Rohrabacher. Right.
    Dr. Keller. So the technology you're describing I think is 
very exciting. It also depends on batteries and what 
applications are using batteries. The design of batteries are 
very different if you're going to automotive or if you go for 
example----
    Mr. Rohrabacher. Have you heard anything about the sodium 
battery?
    Dr. Keller. Yes. Yes, I saw----
    Mr. Rohrabacher. Thumbs up or thumbs down?
    Dr. Keller. I think it's thumbs up. So the key is there's 
energy density thing we have to work on.
    Mr. Rohrabacher. Okay.
    Dr. Keller. But overall, I think it's very encouraging.
    Mr. Rohrabacher. Okay. Thumbs up? Thumbs up or thumbs down 
on Goodenough's sodium battery?
    Dr. Eglash. I wanted to put it in the broader context, 
echoing what some of the previous witnesses have said. The 
improvement in battery technology is dramatic and continuous, 
and it's going to help storage for electricity on the grid as 
well as automobiles.
    Mr. Rohrabacher. That's clear. Now, what about this sodium 
breakthrough?
    Dr. Eglash. Very promising.
    Mr. Rohrabacher. So you give it a thumbs up as well?
    Dr. Eglash. Sure.
    Mr. Stein. I'd give it a thumbs up as well. It's always new 
breakthroughs are wonderful to hear about. The one thing I'll 
just highlight is that battery and storage technology I think 
is an example of something that--the private sector already has 
a very enormous incentive to already do this. So I think that's 
one area that we can think about backing off federal funding.
    Mr. Rohrabacher. So you gave it a thumbs up. So we've got 
three thumbs up and one not so sure but maybe. And let's just 
note again--and I agree with the last witness who said we put 
in, somebody put a lot of money into that research. And I know 
that it's a little basic and applied. I understand your point 
there. But definitely the basic research has been done, and it 
seems to me that we should be applauding anybody who invests in 
things like Dr. Goodenough's new sodium battery. And we should, 
Mr. Chairman--I would hope the job of--our job is to see what 
we can to goose the private sector into investing in it and to 
actually commercializing some of these breakthroughs like Dr. 
Goodenough has done at the University of Austin in Texas. Thank 
you.
    Chairman Weber. Well, I'm not sure the right word is goose 
the private sector in this setting. Maybe it's charge the 
private sector with getting that done. Maybe that's a better 
word. The Chair now recognizes Mr. Veasey of Texas.
    Mr. Veasey. Thank you, Mr. Chair. And I wanted to ask 
questions to Dr. Eglash and Dr. Keller. The President's budget 
request declared some research as early stage and therefore 
worthy of federal support. Other activities, such as later-
stage research, also should be immediately eliminated, 
according to this, given that the private sector's supposedly 
better equipped to carry them out. However, Administration 
officials confirm to Committee staff that they did not engage 
with the private sector at all while compiling the budget 
request to determine what industry would be able or willing to 
pick up.
    In your experience, I wanted to know, are the cuts proposed 
in the fiscal year 2018 budget research areas of the private 
sector is willing to simply start funding after the federal 
government cuts them?
    Dr. Eglash. The private sector is in most cases unable and 
unwilling to make up for those cuts for a number of reasons. 
Much of the research that still remains to be done is across 
diverse technologies and risky and very difficult for any 
single company to justify investing in.
    In addition, the balance sheets of most U.S. solar energy 
companies are not strong enough right now to support the level 
of investment that would be needed to bring solar energy to the 
next level.
    As you know, government has a long tradition of helping to 
support technologies like energy in particular where the costs 
of projects and the time to pay out can be quite long.
    Dr. Keller. So I think the problem that I'm seeing is was 
the industry taking over. But you have to understand, where is 
the new technology? Let's come back to the battery example. If 
somebody invents a new anode or new cathode which is really 
promising, the way that you bring this to market is a long, 
very risky process. And I think this is where we from the 
research community can work together with companies to deal 
with some of this technology to further move it down the 
market.
    If this is a tiny little improvement, I would agree that 
this should be done by industry. But if you have some game-
changer, so for example, you go from lithium to sodium, this is 
not just done overnight. So this is a very risky and a very 
long process. And I think we need to have a balance there to 
help industry to deal with some of this technology, to move it 
further down the market.
    Mr. Veasey. So I mean with that, do you think the federal 
government should engage with stakeholders in the private 
sector to understand what research areas they're likely to fund 
before it proposes to completely eliminate or drastically 
reduce funding for R&D programs?
    Dr. Eglash. I think there's huge benefit to the kind of 
dialogue with industry you're describing. I think that industry 
has the real-world experience and perspective and insight that 
can help inform the research agenda. I think also the fact that 
we're arguing for federal funding, it's also true that industry 
should have some skin in the game. This doesn't need to be in 
the spirit of handouts, and of course, many of these federal 
programs involve different models for cost sharing. And that 
can be one of the best practices for doing this kind of thing.
    Dr. Keller. Another example is if you look at industry, I 
think industry is very, very good to take current products and 
fine optimize the current products, but I think a lot of times 
you don't see that industry is changing and doing the step 
function.
    So I'll give you this example from my prior job, and we 
started this idea to what about if you would 3-D print the 
whole car. Current automotive industry would not do this 
because it potentially disrupts the whole business models. So 
but now when you show that research is opening up this venue, 
then you come, you bring--then work with industry and then help 
to transition this new technology, this 3-D printing over which 
can completely change the way we're doing molding, for example.
    So this is an example where I think there's a very good 
synergy by de-risking and helping to push technology into the 
market and keeping U.S. companies competitive because a lot of 
this research innovations goes on around the whole world. And 
we here in the U.S., I think we are the world champions in 
innovation. And I think we have to continue to drive innovation 
forward, to keep our U.S. companies on the forefront of 
innovation. And I think this is what the federal support to 
research can do.
    Mr. Veasey. Thank you. Mr. Chairman, I yield back.
    Chairman Weber. I thank the gentleman. I now recognize the 
gentleman from Florida, Mr. Dunn, for five minutes.
    Mr. Dunn. Thank you very much, Mr. Chairman. We have so 
little time and so many questions. I'll try to be brief, and I 
urge you to do the same.
    Dr. Keller, first up. In your testimony, you explained the 
multi-junction solar cells that are in the satellites, too 
expensive for terrestrial applications but you're trying to 
bring them back to earth. What are the material structural 
properties of these cells that are so desirable? Briefly.
    Dr. Keller. So very briefly, it's almost like a sandwich. 
You're stacking all the different materials on top of each 
other, and the way we're doing this right now is very 
expensive, to lay down all this material, make the 
intermediate. So the idea really is how to bring the technology 
we have running around on Mars, how do we bring this back on 
Earth? And this is where we need new innovation to make this 
next step of the manufacturing. And that's again what I talked 
about----
    Mr. Dunn. So it's a manufacturing thing?
    Dr. Keller. The process of the multi-junction cells will 
stay the same, but the way we make it, we have to make it in a 
much cheaper way to put this onto our drones----
    Mr. Dunn. Okay. That sounds promising.
    Dr. Keller. --and satellites.
    Mr. Dunn. Could you describe the advancements in battery 
again, Dr. Keller, battery sciences, and are there actually 
batteries now or in the near-term future that are capable of 
meeting utility-scale power demands?
    Dr. Keller. So my personal opinion is that again, what I 
tried to say earlier, that batteries are not batteries. So 
there's a difference on the architecture. If you're going to a 
battery into a car, where's the battery for grid? Because as 
you know, when you drive around, you're limited on space what 
you can put into a car. So when you have very high-energy 
density, you want to try to do it as light as possible.
    On the grid side, well, a lot of times room is not 
necessarily the limitation----
    Mr. Dunn. But I mean, even a battery of size, there's room.
    Dr. Keller. Yeah.
    Mr. Dunn. Utility scale? Really?
    Dr. Keller. So I think we can and I think also I would say 
the batteries would depend on what the application is. Will we 
have batteries for two weeks of storage, you know, at grid 
level.
    Mr. Dunn. When you say two weeks of storage, megawatt 
hours, day in, day out, for 2 weeks?
    Dr. Keller. So I think we will--with different--with 
certain technologies in batteries, we will go to a grid-level 
storage possibility.
    Mr. Dunn. I'm intrigued. So I'm always--again, Dr. Keller, 
the potential for solar fuel. What fields--and I will say, I'm 
always puzzled that I never--I had this dearth of reporting of 
research on hydrogen. It seems like such a simple ladder, you 
know, to electrolysis, hydrogen. Am I missing some key?
    Dr. Keller. No, you're absolutely correct. When you 
forecast where the electricity costs might come in the years, 
it might be that the electricity is getting very plentiful. 
People might argue it might get so cheap that it's not worth--
anymore.
    So the key is what are we doing with electrons? So the idea 
is can I take electrons to something else? So you can call this 
power-to-x, for example.
    Mr. Dunn. Well, I mean, if you can make a lot of hydrogen--
--
    Dr. Keller. This----
    Mr. Dunn. --you can store that.
    Dr. Keller. You could do this.
    Mr. Dunn. Right.
    Dr. Keller. Or you could go through hydrogen as a platform 
molecule to hydrocarbons. You can use hydrogen to go to 
ammonia.
    Mr. Dunn. Or you can just burn it.
    Dr. Keller. So the idea is can you diversify electrons? And 
we are doing more with electrons, just putting them into the 
grid. So this is I think where we need research and very 
fundamental research----
    Mr. Dunn. Storage?
    Dr. Keller. --to go down this path. Yes.
    Mr. Dunn. But it just looked like an obvious one to me. I'm 
going to turn to Mr. Stein, if I may. I want to focus now on 
the market forces that have decreased the cost of photovoltaic 
solar energy. Do you think that's basic science research that's 
had the major impact or is that just innovative manufacturing 
or perhaps it's government fiddling with tax credits?
    Mr. Stein. Well, as far as lowering the cost itself, 
there's no question that that has happened. And that's, I mean 
that's certainly to--it's incentivized by the tax credits. But 
that probably would have happened independently of that. But 
the largest portion of it is almost certainly is Chinese 
manufacturing innovation because that's why the solar panels 
have become so much cheaper is really because they're being 
imported from China.
    Mr. Dunn. And they're probably subsidizing the manufacture. 
Is that your point?
    Mr. Stein. Well, they probably are subsidizing at least a 
portion of the manufacture but it's also just they have cheaper 
labor, they have lower environmental standards, frankly, 
because some of the components that go into some of these solar 
panels----
    Mr. Dunn. I'm going to interrupt you. We're running out of 
time. If there were no tax benefits to solar, no investment 
credits, no mandatory buybacks, all this stuff, what would--
would solar be economically viable and what do you imagine a 
megawatt hour would cost if you could guess that?
    Mr. Stein. I think it would be economically viable in 
certain parts of the country. I think Southern California?
    Mr. Dunn. So--yes.
    Mr. Stein. It makes a lot of sense. Massachusetts, it 
doesn't.
    Mr. Dunn. So, within range. In the 30 seconds left to me, 
Mr. Simmons, you mentioned grid integration reliability issues, 
the duck curve. Could you describe EERE's focus on utility 
scale demand, and is the storage of energy part of that focus? 
If so, how?
    Mr. Simmons. At EERE, we are focused not on the utility 
scale storage so much. That is really the Office of Electricity 
at the Department of Energy. However, we work together with the 
Office of Electricity through the Grid Modernization Initiative 
to bring together both of our offices to be able to look at all 
types of storage, whether it is storage at home, storage on the 
grid----
    Mr. Dunn. The truth here is that I've exceeded my time. And 
as we all know, our Chairman is very capable of telling time. I 
won't push my luck any further. Thank you very much for all of 
the panelists. Mr. Chairman, I yield back.
    Chairman Weber. Mr. Simmons, would you like to finish that 
answer for him?
    Mr. Simmons. I'll just finish by saying that we are working 
together with the Office of Electricity to look at grid-scale 
storage using a variety of different storage techniques and 
thinking about the issue holistically as well as being able to 
look at integration of building technologies with the grid to 
be able to hopefully shift some demand around, reduce peaks. 
You know, really, when it comes to storage, I think it's 
important to think about storage holistically and everything 
that we can do to shift around demand for energy to overall 
reduce the cost and really drive economic growth.
    Chairman Weber. I thank you. I yield the gentleman another 
30 seconds?
    Mr. Dunn. Well under 30 seconds. I'm going to ask the 
panelists, any of you who think you are capable of this, 
please, please, please get back to us with a white paper on 
storage. We are not informed well about storage. Thank you.
    Chairman Weber. I thank the gentleman. I now recognize the 
gentleman from California. Jerry, you're up.
    Mr. McNerney. Well, thank you, Mr. Chairman, my good friend 
in nuclear power. You know, I spent about 20 or more years in 
the wind industry, some of it at NREL's National Wind 
Technology Center. Good times. We had developed a theoretical 
model that showed diminishing cost-of-energy return as the 
turbines got bigger, only to be shown later that that was 
wrong. So Dr. Keller, is there a similar theoretical curve for 
solar, a model for solar energy that shows diminishing cost-of-
energy return for solar?
    Dr. Keller. Look, I don't know if a model like this exists 
because like now, we're seeing--and you might have a better 
idea there. But look, I think right now we're seeing further 
decrease in solar because it's a complex synergy of all this 
different technologies working together. But you might have----
    Dr. Eglash. If I may add a comment?
    Mr. McNerney. Yes.
    Dr. Eglash. Certainly for a solar cell built out of a 
single semiconductor, there are limits in its performance. And 
so one of the current areas of research is combining two 
different semiconductors together. We've heard a couple of 
people today talk about a new class of materials called 
perovskites, and one of the things that people are looking at 
as a so-called tandem cell that involves a layer of perovskites 
and a layer of something else that might in fact be silicon.
    It's also true that solar cells don't always work well at 
high temperatures. And so there's work involved in trying to 
improve the performance of solar cells at high temperatures 
because they're often used in environments where obviously the 
ambient temperature can be quite high.
    Mr. McNerney. So there's significant room for improvement 
in cost?
    Dr. Eglash. That's right.
    Mr. McNerney. Thank you. Dr. Keller, Mr. Stein stated that 
government funding often crowds out private funding when it 
enters a given area. Have you seen government funding crowd out 
private funding in areas of NREL's research?
    Dr. Keller. No. Look, I think there's a synergy because 
when you have a strong, fundamental science portfolio with the 
people who understand also what industry needs, and when you 
look into this, a lot of our research when we go-- perovskite 
is a good example. I mean, you're doing a lot of analysis up 
front to see what is really some of this new game-changing 
technologies based on some of the analysis. And of course, a 
lot of the fundamental science also has input from industry 
where a lot of our researchers not just create it out of a 
vacuum. You're having committees, you're having panels. You're 
inviting the top researchers and getting feedback.
    So I would argue that there's nice synergy by having a 
strong fundamental science and then you're tying all of this 
with industry. And this is where you then get the synergy and 
the most advancement of the technology.
    Mr. Simmons. May I make a quick----
    Mr. McNerney. Sure.
    Mr. Simmons. --comment about that? In terms of the 
Administration's position here, we want to spend, you know, 
limited taxpayer--you know, some of the limited taxpayer 
dollars that we have on early-stage research. However, we also 
want very much for this work that Martin was just talking about 
as this synergy between the national labs, we want to leverage 
the investments that have been made at the national labs 
through taxpayer dollars and then leverage that with NREL, the 
other national labs also working together with industry to get 
those out of the labs.
    So that work that he was just talking about, I want to 
stress that the Administration very much supports that.
    Mr. McNerney. I'd like to believe you. Dr. Eglash, can you 
explain why the companies in the Bay Area PV Commission don't 
carry out research in certain areas that might actually benefit 
their long-term bottom line?
    Dr. Eglash. You mean on their own?
    Mr. McNerney. Right.
    Dr. Eglash. Yeah. There's a number of reasons. One is that 
in many cases, they simply don't have the financial wherewithal 
to do so. And to your earlier question about whether federal 
support might crowd out private investment, I think we can 
point to several examples where the opposite is true and 
federal support actually attracts increased private investment 
because at that point there can be a leveraging of the 
investment and you can reduced some of the barriers that the 
private sector would otherwise see.
    In the case of the companies that have chosen to join the 
Bay Area PV Consortium, they're contributing cash alongside of 
the federal investment. They're also contributing know-how and 
insights, and they also provide a path to commercialization for 
the innovative technologies that are being developed.
    So far from being a handout, the idea is much more of a 
partnership.
    Mr. McNerney. Kind of a leverage to get industry to invest 
more.
    Dr. Eglash. I think there is definitely a leveraging.
    Mr. McNerney. Thank you, Mr. Chairman. I yield back.
    Chairman Weber. I thank the gentleman. I now recognize Mr. 
Tonko for five minutes.
    Mr. Tonko. Thank you, Mr. Chair, and welcome to our 
witnesses. I'm pleased that the Committee is looking at this 
issue, and I strongly believe that we must continue to support 
and fund renewable energy research. The Office of Energy 
Efficiency and Renewable Energy has a proven record of 
delivering innovative technologies that make renewable 
electricity generation cost competitive. As we push our 
innovation economy forward, groundbreaking new technologies 
become that much more essential.
    EERE allows exactly these kinds of technologies to take 
root. I could not be more proud of these first-of-their kind 
and game-changing new technologies that this program is helping 
to make a reality. In 2011, through the SunShot Initiative, we 
set out to reduce the total cost of solar energy. We set 
ambitious goals, and we invested wisely. This past September, 
the SunShot Initiative successfully met the utility scales 
solar cost target of 6 cents per kilowatt hour three years 
earlier than anticipated.
    While we should herald this success, I worry that there are 
interests who would have us reduce our commitment to renewable 
energy research. China currently invests more than double the 
U.S. commitment to renewable energy research and development; 
and while other countries continue to pioneer innovative 
renewable energy and hyper-efficient technologies, President 
Trump and Republican leaders are working to eliminate or gut 
most cutting-edge programs including Advanced Research Projects 
Agency-Energy, the ARPA-E, and the Office of Energy Efficiency 
and Renewable Energy. The budget proposed by the President 
would cut funds for EERE by 70 percent and eliminate ARPA-E 
entirely. These massive cuts defy common sense and will cost us 
dearly in the future by abandoning innovation and weakening 
America's global competitiveness.
    So we must do more to support these groundbreaking 
initiatives. We've heard that the SunShot Initiative is a 
political goal, not a research goal. However, it seems to me 
that the purpose of investments in energy technology are to 
advance the technology so it functions more efficiently.
    So Dr. Eglash, could you explain why the SunShot goals were 
a completely reasonable choice for focusing government 
investment?
    Dr. Eglash. The SunShot goals created an inspiring target 
of cost and performance that then mobilized the attention of 
researchers and industry. At no point did it seek to pick 
particular winners and losers beyond a support for solar 
energy.
    If I could just comment briefly, for several years I was a 
utilities commissioner for one of our nation's small 
municipally owned utilities, the utility of the City of Palo 
Alto, California. And there through purchasing and deploying 
utility scale solar, we were able to reap the benefits over 
years of a technology that doesn't need a continuous source of 
fuel, like gas or coal or oil. Once you've deployed it, it's 
then free, other than a modest operations and maintenance cost. 
And in that same way, the nation's increasing use of solar and 
renewable energy can help strengthen the grid and provide 
greater energy independence.
    Mr. Tonko. Thank you. Dr. Keller, can you tell us a little 
more about how the SunShot Initiative contributed to falling 
prices in solar energy?
    Dr. Keller. The SunShot looked at this holistically, how 
you can drive down costs through more innovation research. And 
when you look at this in what areas research was done just to 
name a few, it was in general about the efficiency of the 
materials, the position of these materials, a better 
understanding of the photo absorbers such as silicum or cadmium 
telluride, the buffer layers, the electrodes, the new module 
materials, power electronics.
    So it was not one little step which led to this. It was 
holistically, that you're looking into all the different 
components to further create research and innovation to further 
decrease cost. And I think it was very successful, and people 
say it was all done by China. I would like to compare this to 
when you look at First Solar, which also--the biggest U.S. 
manufacturer of solar panels--and they also with cadmium 
telluride decreased the cost significantly here in the U.S. 
because of some of this research going on in activities such as 
SunShot.
    Dr. Eglash. If I may add a specific----
    Mr. Tonko. Sure.
    Dr. Eglash. --example to the story, the way that this 
worked was industry would identify certain needs, needs for 
lower manufacturing costs, needs for example for a better 
encapsulant, the coatings that keep humidity away from the 
solar cell itself. But they wouldn't propose what the 
particular solution would be. That came from the researchers. 
And while it's not clear whether you can call that basic or 
applied, it is clear that with the help of EERE and the SunShot 
goals to focus attention, we were able to have that kind of 
synergy and leverage between identifying problems and then 
finding promising solutions.
    Mr. Tonko. Which would obviously increase our 
competitiveness as an American solar industry. Gentlemen, thank 
you very much. And with that, I yield back.
    Chairman Weber. I thank the gentleman. The gentleman from 
California, Mr. Takano, is recognized.
    Mr. Takano. Mr. Chairman, thank you. Mr. Simmons, we've 
heard that the SunShot Initiative may not have been responsible 
for the cost of solar installation's falling as the cost 
decline may have largely been the result of Chinese 
manufacturing innovation. However, China has invested over $50 
billion in renewable energy investments since 2012 and upwards 
of $100 billion recently. During that time, China has become 
the world leader in solar panel manufacturing. I think we can 
agree that the investments in China are overwhelmingly made by 
the Chinese government.
    While you discussed the importance of the free market, the 
countries we are competing against in this industry do not seem 
inhibited from using government investment to throw the game in 
their country's favor. Do you believe that there may be a 
government role in avoiding ceding control of this vital 
industry to China?
    Mr. Simmons. I--you know, it's the Administration's 
position that there is a government role for early-stage 
research and development.
    Mr. Takano. Okay. So you do believe there's a government 
role?
    Mr. Simmons. Well, I mean, that is the Administration's 
position.
    Mr. Takano. All right. And we've heard that--you've heard 
the discussion about how that's not so easily defined, about 
what early stage is----
    Mr. Simmons. Sure. Sure.
    Mr. Takano. --versus and that's a legitimate point for 
discussion. Does anyone else want to--I mean, Mr. Keller or Mr. 
Eglash, would you like to comment?
    Dr. Eglash. I just wanted to point out that the solar 
energy industry was largely created by the United States during 
research, going back 20 or 30 years. And it's only been during 
the last 10 to 15 years that much of the solar energy 
manufacturing industry has moved overseas, particularly to 
China. But with the evolution of these technologies, we have an 
opportunity to bring significant portions of that industry back 
to the U.S. with all the ancillary benefits of doing so.
    Mr. Takano. Dr. Keller?
    Dr. Keller. May I just jump in there for a second? I fully 
agree with this comment and what I said, for example, on this 
next generation of materials. If he is successful to keep and 
drive this innovation forward, this is also a chance in my 
opinion to get the supply chain for all solar manufacturing 
back into the U.S.
    Mr. Takano. So this next generation of materials, do you 
think that's something that's left to the free marketplace or--
vis a vis our competition with global competitors? Is this 
early stage? It's really not early stage.
    Dr. Keller. Perovskites are still very early stage, but 
I'll tell you what's happening right now that we are in the 
U.S., I think we still have a front, a leading position in this 
new next generation of materials. But they say, everywhere I 
travel, people jump onto this like crazy, and our fear is that 
China for example starts to invest significant more money in 
this next generation of materials. And so the key is we have to 
continue to drive this innovation and not only on the material 
side but then you're combining this with the next generation of 
manufacturing side.
    Mr. Takano. How do you answer folks who, you know, who say 
that government's really not good at job--does not do a good 
job of deciding these sort of things? It seems to me that there 
might be some market incentives for people to invest in this 
research. I mean, how do you answer that?
    Dr. Eglash. There certainly are market incentives in some 
of these areas. But we're living in a particularly promising 
moment with respect to material science, chemistry, and 
chemical engineering. These are technologies that can help 
solar energy, energy broadly including storage, and a variety 
of other technologies.
    While there is a vibrant materials and chemistry industry 
today, it's not sufficient in and of itself because these 
technologies are so broad and so many of the hugely promising 
things we could do are risky enough, diffuse enough, or have a 
sufficiently long time to pay off that we'll be in an even 
better position if we also have some federal support for 
research and materials and chemistries.
    Mr. Takano. Go ahead, Mr. Keller.
    Dr. Keller. If I can jump, when you look at perovskites, 
what's happening right now is an example which was at the 
beginning very risky. Now we're getting to this point where 
people say, oh, this could be really exciting. Now we're seeing 
interest from certain start-up companies. They're coming out of 
Stanford. They're coming to us. They're trying to collaborate 
with our scientists to advance this technology, and I think 
this is an example where when you start how all this was 
initiated came from very, very early stage research, then was 
narrowed down. We tried to overcome some of the big principles 
around these materials. And so this leads in my opinion, if you 
continue to drive this innovation forward, will have the 
potential to revolutionize solar.
    Mr. Takano. We might be missing a real opportunity to stay 
ahead of the game in this technology, and it would be foolish 
for us to adhere to a rigid ideology about--using that ideology 
to not make a good judgment here, to be involved in this next 
stage of research. Mr. Chairman, I yield back.
    Chairman Weber. I thank the gentleman from California. It's 
time for our friend from Colorado, Mr. Perlmutter.
    Mr. Perlmutter. Thanks, Mr. Chairman, and thank you to the 
panel. I've been around long enough to know that early stage 
and late stage and basic and applied from, you know, Congress 
to Congress, from administration to administration, we kind of 
whipsaw the Department of Energy, saying, okay. We like early 
stage. We like late stage. But sometimes late stage becomes 
early stage, and I'd like to run a clip from a TV report from 
yesterday about the National Renewable Energy Lab.
    [Video shown.]
    So really, you know, pretty inspiring. And I just, again, 
obviously I'm very proud of the National Renewable Energy Lab. 
I'm proud of the Department of Energy just because you have a 
lot of very bright people there.
    So Dr. Keller, if you'd like to comment on that for a 
second? And then after that, I have some questions for my 
brothers in the bar.
    Dr. Keller. Thank you very much. Look, this was a video to 
show you how science is done. So if you have smart people and 
creative people and they have an experiment that went wrong, 
and they say, oh. What about this? And they change and adapt. 
And this is something which makes the National Lab System, DOE 
but also the scientist. This is the strength of the United 
States. I think that we have the best and most brilliant people 
doing this. I mean, I compare this again through my traveling 
where we have the edge. If you compare us, our science, to 
other countries, we are still much more creative. We live in a 
system which enables creativity, and I think this is why it's 
so important to continue to support researchers through federal 
funds.
    Mr. Perlmutter. Okay. And I thank you for that. And so, you 
know, Mr. Simmons, I was encouraged by some of your comments 
concerning the National Renewable Energy Lab, and really, you 
know, whether it's basic science or applied science, I mean, 
depends, you know, what you want to call it. but it's sort of 
on this continuum.
    But one of the things I am concerned about--and so I'm 
going to ask some math questions of my attorney friends. You 
know, at 207 million, that's the solar budget from last year 
for '17. It's going to get cut to 70 million, okay? So let's go 
with the higher number, the 207 million. We are in the throes 
of dealing with a tax cut that's going to cost the country 
about $1.5 trillion, at best. Do you have any idea how many 
solar energy budgets fit into $1.5 trillion? And I'll give you 
like two or three seconds, not embarrass you, because we've got 
the scientists here. But I've done the math, so I'll help you.
    Mr. Simmons. Well, there was a reason I went to law school.
    Mr. Perlmutter. Okay. Mr. Stein?
    Mr. Stein. I'm not going to do the math in my head. It's--
--
    Mr. Perlmutter. All right. So--and I don't want to make--
you know, I went to law school----
    Mr. Stein. You're good with--
    Mr. Perlmutter. --and I'm proud of being a lawyer and I'm 
proud you guys are lawyers. But the answer is 7,142.85 budgets 
for solar energy. Let's round it up to 7,143. Let's take all of 
the EERE budget for '17 which is $2.90 billion, reduced to $636 
million. At 2 billion, let's round it down just to make the 
numbers easy. That's 750. And so I appreciate, gentlemen, you 
know, some of the questions about, you know, spending too much 
and cost overruns. But everything is relative and in 
perspective. These laboratories--and Mr. Simmons, you are now, 
you know, not burdened but you are tasked with really working 
with them and getting the best out them because they do bring 
good things to light. And these cuts that we're going to face 
are really, you know, just--they are paralyzing. And so I 
appreciate this panel being here. I appreciate some of the, you 
know, the comments of our engineers and scientists as well as 
the kind of the focus that you gentlemen have, you know, as to 
what should the government be doing, you know? What is our 
role? But we do know that we are making some substantial steps. 
And I don't want to see us to step backwards from that. This 
country is too good for that. With that, I yield back to the 
chair.
    Chairman Weber. I thank the gentleman. I thank the 
witnesses for their valuable testimony and the Members for 
their questions.
    The record will remain open for two weeks for additional 
comments and written questions from the Members. This hearing 
is adjourned.
    [Whereupon, at 3:36 p.m., the Subcommittee was adjourned.]

                                 <all>
</pre></body></html>
